                                                                                                                       Denali Commission
                                                                                                                     510 L Street, Suite 410
                                                                                                                     Anchorage, AK 99501

                                                                                                                          907.271.1414 tel
                                                                                                                         907.271.1415 fax
                                                                                                                     888.480.4321 toll free
                                                                                                                           www.denali.gov



                                                                                                                  INSPECTOR GENERAL

                                                              April 15, 2013
                                                                                                                  FINAL REPORT
To:             Joel Neimeyer, Federal Co-Chair                                                                     ———
                                                                                                              FOR PUBLIC RELEASE

From:           Mike Marsh, CPA, MPA, CFE, Esq., Inspector General

Subject: Inspection of state subaward # 340240 to City of Gustavus for tank farm

            ABSTRACT: Interest group repeatedly complained of unfair treatment toward its member (City) by
            grantee (State) that made subaward to build local tank farm. Inspector general opened an
            inspection of the project’s compliance with applicable laws. Inspector general found that
            (1) controversial 100-year lease was invalid from the start due to legal irregularities, (2) City has
            unwarranted fear that it will not have clear title to the underlying land and attached fixture, (3) this
            use of agency’s appropriation presents a significant legal issue that requires a GAO ruling, and
            (4) City’s antitrust concerns may warrant further study by the Federal Trade Commission.


                                                              OVERVIEW

A state economist reported last year that                                                                                USGS BASE MAP


Alaska ranks first in the nation in the per
capita receipt of federal grants.1 Congress has
over the years sent around $1 billion of these
grants through the Denali Commission.

The Denali Commission (Denali) is an
independent federal agency that Congress
created in 1998 to build public facilities in
“bush” Alaska.2

This inspection by the Office of Inspector
General (OIG) concerns a tank farm3 that
Denali funded in the small town of Gustavus                                                      EXHIBIT 1
                                                                                  LOCATION OF GUSTAVUS, ALASKA (POP. ≈ 460)
(pop. ≈ 460).

1
  See Neal Fried, “Federal Spending in Alaska,” Alaska Economic Trends (Feb. 2012), pages 4-8, available online at http://
labor.state.ak.us/trends/feb12.pdf.
2
    See Denali Commission Act, P.L. 105-277, 42 USC 3121 note.
3
    The tank farm is a set of five fuel storage tanks that support both the diesel powerhouse and retail sales.
Denali OIG inspection of                         2                                               April 15, 2013
state subaward # 340240



                                                                     PHOTO COURTESY OF STATE OF ALASKA DNR DMLW




                           EXHIBIT 2 — NEW TANK FARM AT GUSTAVUS, ALASKA



As detailed below, OIG is responding to a complaint that presents various legal issues concern-
ing Denali’s relationship to its world.


                                     THE PROJECT IN DISPUTE


The inspected tank farm is one of the four
                                                                                EXHIBIT 3
facilities (total > $7 million) that Denali has
funded in Gustavus since the city first incorpor-           DENALI GRANTS FOR GUSTAVUS, ALASKA
                                                                        (Pop. ≈ 460)
ated back in 2004 (see EXHIBIT 3).
                                                          Hydroelectric powerhouse                    $2,800,000
The four facilities function together as an
integrated utility system. The hydroelectric              Diesel powerhouse                           $1,679,504

powerhouse provides the lowest cost electricity.          Dock                                          $907,700
Through a fiber-optic cable, it switches on the           Tank farm                                   $1,973,370
diesel powerhouse as needed for a supplement.
The diesel powerhouse uses the fuel trucked                  Total                                    $7,360,574
from the tank farm.

The tank farm (see EXHIBIT 2) gets its fuel from a 1,700-foot pipeline that runs under a roadside
right-of-way, a causeway, and the public ferry dock. At the end of the public dock, delivery
barges unload fuel into the pipeline’s “marine header.” The pipeline is actually a set of three
individual pipes (each 3 inches in diameter) that accommodate the different types of fuel.

Like the metaphor of an iceberg, a key feature of the facility is the long pipeline that lies within
the right-of-way, causeway, and dock — not just the set of small tanks visible at the end of the
line. The barge company was reticent to continue the risky practice of running a long hose down
the road during deliveries. The new ability to safely unload saves Gustavus from the impending
spectre of costly fuel flights.
Denali OIG inspection of                                         3                                        April 15, 2013
state subaward # 340240


In other words, the tank farm with its pipeage is a form of ship-to-shore distribution analogous to
the wiring that connects bush residents with their local “earth station” for phone, Internet, and
cable television. Or the buried pipes that commonly transmit natural gas in the neighborhoods of
the Lower 48.

Indeed, Denali’s grant that funded the tank farm explicitly states that, “[a]s a precondition of
construction funding, a project must demonstrate that it is part of a sustainable electric utility or
bulk fuel system.”4

But the centerpiece of Gustavus’ four-component system is the hydroelectric powerhouse — not
the tank farm. Though Denali contributed $2.8 million toward the hydroelectric powerhouse, its
total cost of $8.8 million was spread among a variety of funders.

Nevertheless, the Denali-funded tank farm is more than a “footnote” to the people who live in
Gustavus. The operations manual, required by the Coast Guard, notes this tank farm’s important
role in the community:

            The Facility provides storage for virtually all of the unleaded gasoline, aviation
            gasoline, #1 diesel, and #2 diesel fuel imported into the community for power
            generation, public building heating, retail sales and marine fueling. . .5

The small tank farm thus doubles as support for both the local electric company (a state-
regulated utility) and traditional retail sales at the local gas station and airport (an unregulated
activity).

                                                  COMMUNITY CONTEXT
                                                 OF THE FUNDED FACILITY

Denali addresses the third world conditions of the “other Alaska”6 — the impoverished “bush”
where the cruise ships don’t take their visitors from the Lower 48. We have previously7
described the typical scenario as follows:

            The remote settlements served by the Denali Commission are far from the roads,
            the power grid, and the state’s scenic railroad. The electricity is sometimes, the
            fuel tanks leak, the food rots, the garbage sits, and the homes wash away. The
            water is undrinkable, a shower is a treat, and the bathroom is a bucket. The teeth
            fall out and people get diseases that we assumed were history.

4
    Denali award # 331-07 to the State of Alaska, award condition 12.
5
    See Marine Transfer Operations Manual (May 2011), page 1.
6
 The scenario is analogous to the 1960s poverty of the Lower 48 that Michael Harrington wrote about in his classic, The Other
America (Macmillan 1971).
7
 See “Inspector General’s Perspective on Management and Performance Challenges Facing the Denali Commission” at page 59
of the Denali Commission Agency Financial Report (AFR) Fiscal Year 2012, available online at www.denali.gov.
Denali OIG inspection of                                         4                                        April 15, 2013
state subaward # 340240



            In short, the third world conditions of the “other Alaska” are still out there in the
            land beyond the tourism commercials and the travelogues.

But tiny Gustavus is an exception to this traditional context for a Denali-funded project.

Statistics published by the State of Alaska (the State) indicate that the median family income in
Gustavus is around $52,000 and that only 24 residents are “persons in poverty.”8

Gustavus lies along the Inside Passage frequented by cruise ships. The town’s dominant
employer is the National Park Service, which administers nearby Glacier Bay as the scenic icon
of Alaska tourism with the park’s 16 tidewater glaciers.

In fact, Gustavus is a geographic “notch” that was carved out of the national park to accom-
modate homesteaders who were there first. The State’s 2009 description for the inspected project
asserts that there are “approximately 60,000 tourists visiting or transiting the gateway
community of Gustavus annually.”9 And the State’s 2010 description for the project notes that
“[s]ummer fuel consumption is driven by tourism, and commercial and sport fishing.”10

Around 40% of Gustavus homes are seasonal ones, given its popularity as a weekend and
summer escape from urban Alaska. The State indicates that “[t]he number of residents during
the summer approximately doubles.”11

Gustavus even boasts one of the few golf courses found in the rainy Southeast Panhandle that
lies between Vancouver and Anchorage. The course advertises that “it can truly classify as one
of the world's most magnificent courses” and “will challenge even the best qualified golfers.” 12

Gustavus incorporated itself as a city less than 10 years ago — and is still learning to be a city.
Its city council consists of unpaid volunteers, who annually pick an unpaid mayor. The city has
never had an audit, and its strategic plan states:

            The Gustavus City Council members and Mayor remind their constituents
            regularly that the city plans to keep the least amount of government necessary for
            the job and to spend its funding wisely, as though it had been raised by a bake
            sale.13


8
    See http://commerce.alaska.gov/dca/commdb (accessed Dec. 22, 2012).
9
    See Business Operating Plan of the Gustavus Bulk Fuel Facility, Aug. 10, 2009, page 3.
10
     See Alaska Energy Authority, “Statement of Conformance with Denali Commission Policies” (Aug. 20, 2010).
11
     See http://commerce.alaska.gov/dca/commdb (accessed Dec. 22, 2012).
12
     See www.gustavus.com/activities/golf.html (accessed Dec. 22, 2012).
13
     See Gustavus Strategic Plan 2005, page 17, at www.commerce.state.ak.us/dca/plans/Gustavus-SAP-2005.pdf.
Denali OIG inspection of                                         5                                            April 15, 2013
state subaward # 340240



Nevertheless, Denali has made a sizeable investment of over $7 million in Gustavus during the
city’s short lifespan.

Since the federal government is itself the largest employer in the state, 14 there is a further issue as
to the degree that Congress should pay for the local impacts — past and present — of federal
facilities that dominate adjacent communities. Military sites, environmental remediation, and
popular national parks all present this situation. Such non-Denali impacts should be addressed
through the appropriations of other federal agencies — behemoths that dwarf the Denali
Commission in the federal system.

The role of Denali funding in such a setting raises still other policy questions that we have
previously discussed in our Semiannual Report to the Congress required under the Inspector
General Act.15

                                                        THE COMPLAINT

The collection of four Denali-funded facilities would appear to be a success story for tiny
Gustavus. All four facilities were successfully completed,16 and the state energy agency reports
that the consumer cost for electricity has now been cut in half.17

In fact, one former mayor described the new tank farm as follows at a public meeting of the
Denali Commission:

            [W]e have a state-of-the-art tank farm sitting there right now. It’s wonderful. It is
            absolutely wonderful. . .18

Nevertheless, Denali’s agency head referred this matter to OIG based upon a long series of
complaints from the Alaska Municipal League (AML) that the City of Gustavus (one of its
members) was being treated unfairly.19 AML also referred the matter to the Alaska governor’s

14
   See Neal Fried, “Federal Spending in Alaska,” Alaska Economic Trends (Feb. 2012), pages 4-8, available online at http://
labor.state.ak.us/trends/feb12.pdf.
15
     See Denali OIG, Semiannual Report to the Congress (Nov. 2011), pages 9-17, at www.oig.denali.gov.
16
  Denali’s online public database reports the following for the dock: “Primary project construction completed summer, 2012.
Additional minor work items via construction contract change order pending in order to provide needed improvements that were
not originally part of contract drawings.” See www.denali.gov.
17
  The project manager at the Alaska Energy Authority informed OIG that the cost of Gustavus’ electricity dropped from 68 cents
per kilowatt-hour to 28 cents per kilowatt-hour.
18
     See page 129 of the transcript of the Denali Commission’s public meeting held in Juneau, Alaska on Feb. 23, 2012.
19
  AML persistently pursued its complaint in a series of 6 emails to Denali employees over a period of 15 months. The specific
dates of these emails are: Feb. 17, 2011; March 22, 2011; March 29, 2011; Aug. 5, 2011; Feb. 6, 2012; April 4, 2012.
    A transcript also shows that AML discussed the complaint during a public meeting of the Denali Commission held in Juneau
on February 23, 2012. Minutes for the September 18, 2012 public meeting show further discussion by AML in the context of the
“private enterprise policy.”
Denali OIG inspection of                                        6                                             April 15, 2013
state subaward # 340240


office in Washington, D.C.20 And, at AML’s urging, two Members of Congress have pursued
this matter in the context of their constituent casework.21

AML’s aggressive pursuit of this complaint is
understandable given the commitment that its                                                   EXHIBIT 4
website22 indicates that it undertakes for its
                                                                               EXCERPTS FROM SELECTED CITY
members. The website describes it as a                                         COUNCIL AGENDAS DURING 2012
“statewide organization of 140 cities, boroughs,
and unified municipalities, representing over 98
percent of Alaska's municipalities.” One stated                           July 12, 2012:

purpose is to “[r]epresent the unified voice of                           “Executive Session: Discussion with City attorneys
Alaska's local governments to successfully                                regarding legal strategy, the immediate knowledge
influence state and federal decision making.”                             of which would clearly have an adverse effect upon
                                                                          the finances of the City--City of Gustavus Bulk Fuel
                                                                          Facility.”
AML’s concern about members like Gustavus is
                                                                          August 9, 2012:
even more understandable given the critical
subject matter of the grant. About 60 small cities                        “Executive Session A. Discussion with city attorney
are among the beneficiaries of Denali grants to                           regarding legal strategy, the immediate knowledge
                                                                          of which would clearly have an adverse effect upon
the State for their powerhouses and tank farms.                           the finances of the city – City of Gustavus Bulk Fuel
In fact, the same Denali grant23 used at Gustavus                         Facility”
was also used by the State for powerhouses or
                                                                          November 8, 2012:
tank farms in nine other cities that are members
of AML.                                                                   “Executive Session A. Executive Session To Dis-
                                                                          cuss The Matter Of The Gustavus Tank Farm And
                                                                          Its Potential Adverse Effect On The City’s Fi-
AML further offers investment and insurance                               nances.”
pools through its associated nonprofits, the
AML Investment Pool24 and the AML Joint                                   December 13, 2012:

Insurance Association.25 These are valuable                               “Executive Session A. Executive Session To Dis-
services to small cities, given the limited                               cuss Legal Strategy In Regards to Alaska Energy
availability to them of affordable insurance and                          Authority”
the encouragement for such investment pools by
an Alaska statute.26

20
     Email dated Feb. 17, 2011.
21
     Rep. Don Young (Alaska) and Senator Lisa Murkowski (Alaska).
22
     See www.akml.org (accessed March 11, 2013).
23
  Denali awarded its grant # 331-07 to the State for $10.8 million to construct such projects in 17 locations around Alaska. Eight
of these were to design or build powerhouses for AML members. Two were for fuel storage tanks for AML members, including
the tank farm in Gustavus.
24
   See www.akml.org/Investment_Pool.html and www.amlip.org (accessed March 12, 2013). In Resolution 2008-14, the Gustavus
city council transferred the City’s investment account from Smith-Barney to the AML Investment Pool.
25
     See www.akml.org/Insurance_Pooling.html and www.amljia.org/coverage (accessed March 12, 2013).
26
     See AS 37.23.010.
Denali OIG inspection of                                       7                                           April 15, 2013
state subaward # 340240




But, given Denali’s substantial investment and successful outcome in Gustavus, OIG had some
initial difficulty in understanding AML’s complaint. OIG thus retained the respected Federal
Mediation and Conciliation Service to help clarify the issues. 27 This assisted OIG greatly in
crafting a meaningful response in our role under the Inspector General Act.28

OIG also reviewed records of the dissatisfaction that city officials expressed at public meetings,
as well in their correspondence with the Denali Commission over the past three years.29 Agendas
for the city council reflect that four executive sessions were called in the past year to discuss
legal issues concerning the tank farm (see EXHIBIT 4).

OIG interprets the AML complaint as a concern over (1) the policy considerations of Denali’s
longstanding “private enterprise policy” and (2) the legal requirements attached to the subaward
that Gustavus received from the state government.

The Inspector General Act encourages us to review agency policies,30 and we responded with our
conclusions concerning the “private enterprise policy” in our Semiannual Report to the Congress
(Nov. 2011). We will not repeat that eight-page analysis here, other than to quote our conclusion
that “while Denali’s private enterprise policy no doubt seemed like a good idea at the time
(a decade ago), the policy has now outlived its usefulness.”31

Ironically, this questioned policy originated as a response to constituent casework by a Member
of Congress32 back in 2000 (that is, shortly after Denali’s creation). The Member sought to
protect an existing merchant from the competition of a tribal proposal to operate a new tank
farm.33

Federal courts have cautioned that local governments can face antitrust liability when they
promote monopolies.34 However, this risk was apparently not recognized as Denali responded to

27
     See www.fmcs.gov.
28
   OIG paid out of its budget for these mediation services from FMCS. This is an appropriate use of OIG resources under
Inspector General Act sections 4(a)(4), 6(a)(9), and 8G(g)(2).
29
  The City’s latest complaint letter to Denali was dated March 19, 2013. It concerned the diesel powerhouse that Denali had
funded in Gustavus.
30
     See Inspector General Act sec. 4(a)(3).
31
     See Denali OIG, Semiannual Report to the Congress (Nov. 2011), pages 9-16, at www.oig.denali.gov.
32
     Senator Frank Murkowski (Alaska 1981-2002).
33
     See Denali OIG, Semiannual Report to the Congress (Nov. 2011), page 9, at www.oig.denali.gov.
34
    See Community Communications Company v. City of Boulder, Colorado, 102 S.Ct. 835 (1982); Lancaster Community
Hospital v. Antelope Valley Hospital District, 940 F.2d 397 (9th Cir. 1991). And the U.S. Supreme Court has recently reiterated
its position on the potential antitrust liability of local governments. See Federal Trade Commission v. Phoebe Putney Health
System, 133 S.Ct. 1003 (2013).
Denali OIG inspection of                                       8                                           April 15, 2013
state subaward # 340240


the Member’s concern. Ideally, both the Member and Denali would have sought the proactive
guidance of the Federal Trade Commission in the crafting of Denali’s policy.

The Inspector General Act also encourages OIG to inspect the agency’s compliance with the
laws that apply to its programs.35 This report thus responds to this second aspect of AML’s
complaint, that is, the legal requirements applicable to Gustavus’ grant.36

But we are quick to recognize that our opinion on what the law requires is ultimately just our
opinion. The “primary jurisdiction” to authoritatively decide legal issues, of course, always lies
with a state judge, a federal judge, or the U.S. Comptroller General — depending upon who is
complaining about whom over what.


                                        UNUSUAL EFFORTS BY DENALI’S
                                   MANAGEMENT TO ADDRESS AML’S COMPLAINT

Denali’s management made extensive efforts of its own to resolve AML’s complaint.

Denali’s agency head (himself a civil engineer) flew to Gustavus and attempted to personally
mediate between the State (Denali’s grantee) and the City (the State’s subaward). After directly
observing the very hostile relationship, Denali agreed to take over completion of the project from
the State.

Denali then arranged for completion by another grantee (Foraker Group)37 and another federal
agency (the Army Corps of Engineers).38 They went on to successfully complete the project on
behalf of Denali.

Such a federal takeover of a State subaward is unusual. As a general rule, the federal government
is simply not in “privity” with a grantee’s subaward or contracting.39 In this case, the substitution
changed the City’s status to that of a direct federal grantee.

But, despite this intervention, the complaints continued.



35
     See Inspector General Act sections 4(a)(1) and 6(a)(2).
36
  OIG’s inspection of this matter was conducted pursuant to the Inspector General Act (sections 4a and 6a), OMB Form 424D
(par. 2), the CIGIE inspection standards, and the City’s grant agreement with the State (App. D sec. 3).
    “Inspections” respond to very specific issues that are often complaint-driven. Inspections are narrower in scope and
procedures than the classic “audit” of an entire grant program. See George F. Grob, “Inspections and Evaluations: Looking Back,
and Forward Too,” Journal of Public Inquiry (spring/summer 2004).
37
     Denali grant # 1275.
38
     Denali interagency transfer # RA-544.
39
  See Garreaux v. United States, 77 Fed.Cl. 726, 731-733 (2007); D.R. Smalley & Sons v. United States, 178 Ct.Cl. 593, 597-
598 (Ct.Cl. 1967); Eubanks v. United States, 25 Cl.Ct. 131, 137-138 (1992).
Denali OIG inspection of                                         9                                            April 15, 2013
state subaward # 340240


Denali’s agency head then convened a regional “listening session” in Juneau, Alaska to hear the
concerns of that area’s communities — including Gustavus.40 The panel of Denali “listeners”
consisted of three statewide leaders: (1) the agency head himself, (2) the head of the Alaska
Municipal League (the complainant on behalf of Gustavus), and (3) the head of the Associated
General Contractors of Alaska.

This “listening session” was transcribed by a court reporter and functioned in effect as a public
appeal hearing for the City of Gustavus. Both the City’s former and current mayor presented
their case that the City had been treated unfairly by the State as Denali’s grantee.41

The former mayor requested a “forensic audit” during her testimony:

            [M]y recommendation [is] to conduct a forensic audit of any program partner,
            entity or individual the Commission has directly passed funding to. Additionally,
            any funding that is attached one -- attached to one of those projects that pass
            through DCCED [the State commerce department] to a program partner, entity
            or individual should also be audited using a forensic auditor preferably with
            absolutely no connections in the state of Alaska. . . [emphasis added] 42

Gustavus’ mayor identified this speaker as “the former Mayor and she's really the institutional
history of the official community.”43 We further note that, per state records, she is also the 40%
owner and vice president of a local construction company that was paid $84,125 by the State for
work on the tank farm.44 The original quoted price from that company was $44,150, but the State
granted a 90% change order that increased the price to $84,125 because the “contour and over
burden required additional material.”

Denali’s frustrated agency head (and his counsel) understandably referred this escalating matter
to OIG for inspection. But, as noted above, OIG had some initial difficulty in understanding the
continuing complaint — given Denali’s substantial investment and successful outcome
(electricity costs cut in half).

OIG thus arranged for six months of mediation from the respected Federal Mediation and
Conciliation Service to help clarify the issues, and to moot any that were simply based on poor


40
  This was actually one of five such sessions held around Alaska during FY 2011 to obtain public feedback on Denali’s past and
future performance.
41
  See pages 32-36, 40-43 of the transcript of the “Denali Commission — Listening Session” held in Juneau, Alaska on April 1,
2011.
42
     See pages 35-36 of the transcript of the “Denali Commission — Listening Session” held in Juneau, Alaska on April 1, 2011.
43
     See page 40 of the transcript of the “Denali Commission — Listening Session” held in Juneau, Alaska on April 1, 2011.
44
   The minutes for the July 20, 2009 meeting of the Gustavus City Council indicate her disclosure that this company “had
received part of the contract bid on the dirt work” and her recusal from voting on the tank farm’s lease.
Denali OIG inspection of                                     10                                          April 15, 2013
state subaward # 340240


communication.45 While the mediator assisted OIG greatly in clarifying the issues, the City was
unable to reach a final resolution of its concerns.

                                                      CONCLUSIONS

1. The City disregarded the appeal process provided by state law.

The U.S. Court of Claims has made it clear that federal agencies are not a party to the subawards
contracts, and leases that their grantees make with others.46 Protests concerning the terms of such
non-federal arrangements should thus be pursued under the grantee’s own appeal processes.

This is a fundamental of federal grants that was disregarded here.

Regulations issued by the State’s energy agency detail a multi-level appeal process that can
progress from a hearing officer to the board of directors with its high-level members.47 After the
agency’s own appeal procedures have been exhausted, the jurisdiction for a further binding
review lies in the Alaska Court System — not the Denali Commission or its OIG.48

The City also agreed to such a process in the disputes clause of its grant agreement with the
State:

            Any dispute arising under this Grant Agreement which is not disposed of by
            mutual agreement must be raised to the Executive Director and will be decided by
            the Executive Director or the Executive Director’s designee consistent with
            3 AAC 108.910. . . The decision of the Executive Director or Designee is final and
            conclusive.49

Unfortunately, the well-meaning intervention by Denali’s agency head allowed the City of
Gustavus to disregard the appeal process prescribed by the State’s regulations and the terms of
its subaward. Denali should be careful not to displace that process, since the resulting decisions
(not OIG reports) offer authoritative closure on the legality of the subaward requirements
imposed by the State.

45
  See www.fmcs.gov. This is an appropriate use of OIG resources under Inspector General Act sections 4(a)(4), 6(a)(9), and
8G(g)(2).
46
  See Garreaux v. United States, 77 Fed.Cl. 726, 731-733 (2007); D.R. Smalley & Sons v. United States, 372 F.2d 505, 597-598
(Ct.Cl. 1967); Eubanks v. United States, 25 Cl.Ct. 131, 137-138 (1992).
47
  See 3 AAC 108.910 to 3 AAC 108.920. The board of directors for the Alaska Energy Authority includes the state commerce
commissioner, the state revenue commissioner, and five public members. See www.akenergyauthority.org/directors.html
(accessed April 5, 2013).
48
  See AS 22.10.020(d); Alaska Rule of Appellate Procedure 601; Alaska Court System Form AP-101, Notice of Appeal (from
Administrative Agency to Superior Court).
49
     See Alaska Energy Authority subaward # 340240, Appendix A, sec. 14.
Denali OIG inspection of                                      11                                           April 15, 2013
state subaward # 340240


In other words, the City here might have resolved its complaints long ago had it challenged
particular conditions of the subaward through the appeal process prescribed by state regulation.

Disappointed cities can also express concerns during the “public comments” portion of meetings
of the board of directors of the state energy agency.50 Again, this might have effected a more
meaningful, and quicker, resolution than the complaints that were made at Denali’s own public
meetings.

2. Denali’s well-meaning intervention had its negative impacts.

It is important to realize that Denali’s takeover of the State’s project was hardly a “win-win”
resolution for all concerned. There were negative side effects that should be carefully considered.

To begin with, Denali’s intervention unintentionally undermined the legitimacy of the State’s
appeal process. This seems unwarranted, given a decision by the Alaska Supreme Court that
affirmed the process in an earlier protest from the same agency’s use of Denali funding:

            The hearing officer . . . —after a careful review of the law and evidence bearing
            on the specific claims [the vendor] advanced to support its challenge—issued a
            thorough, well-supported, and clearly explained decision rejecting [the vendor’s]
            challenge. The Energy Authority has adopted the recommended decision and, on
            appeal, [the vendor] has failed to make a persuasive showing of any significant
            legal or factual error in the agency's decision. Accordingly, we affirm the hearing
            officer's recommended decision, set out its full text in Appendix A, and rely on it
            to explain our reasons for rejecting the points [the vendor] raises here renewing
            its arguments before the agency.51

After Denali substituted itself for the State, Denali had to arrange for completion by another
grantee and another federal agency. This resulted in the obvious inefficiency of Congress
sending money to one federal agency (Denali) for completion of a small project by another
federal agency (Army Corps of Engineers).

The public might understandably ponder why Congress didn’t just send the funding directly to
the Corps of Engineers in the first place — without Denali as a “middleman” or “wholesaler.”
And, of course, this situation begs the question as to how many agencies it takes to install five
fuel tanks in a hamlet of less than 500 people.

But a less abstract impact was the loss of work by a long-time contractor with considerable
experience in constructing fuel facilities around the state. Alaska Mechanical Inc. had a $150,000
task order to manage construction of the Gustavus tank farm. However, the State terminated this

50
     See, for example, the board meeting minutes for August 14, 2012 at www.akenergyauthority.org/boardmin.html.
51
  See Powercorp Alaska v. State, Alaska Industrial Development & Export Authority, Alaska Energy Authority, 171 P.3d 159
(Alaska 2007). See also Powercorp Alaska v. Alaska Energy Authority, 290 P.3d 1173 (Alaska 2012).
Denali OIG inspection of                                          12                                               April 15, 2013
state subaward # 340240


task order when Denali took the project over and substituted its own choice of a construction
manager from another grantee (Foraker Group).52

The State’s amendment to its task order states:

            Due to the Denali Commission taking over management of the remainder of the
            project, Alaska Mechanical’s services are no longer needed. We are therefore
            reducing the contract by the remaining balance of thirty four thousand dollars
            ($34,000) and closing out the contract.



3. The City’s fears concerning its title to the facility are unwarranted.

The City complains that it has never received clear title to its new tank farm. Denali’s agency
head disagrees and responds that Denali considers the City to now be the facility’s owner.

Still, Denali can record a release53 of its implied federal lien (“reversionary interest” 54) if the
agency has no further intention, ability, or need to police the facility’s use. Per the enabling act, 55
Denali can ask GSA to assist it with the mechanics of this filing.

The State of Alaska — who actually built much of the tank farm — also acknowledges the City
as the facility’s current owner. This position is consistent with the language of the State’s
subaward56 and the “business plan.”57 It is also consistent with the notice of substantial
completion and closeout letter that the State sent to the City.

OIG contacted the state office58 that handles the transfer of state land to city governments. There
had been two remaining prerequisites to the transfer to the City of Gustavus of the land under-
lying the new tank farm: (1) a land survey and (2) remediation of the old tank farm next door.
The State indicates that both have now been satisfactorily accomplished, and the process to
transfer the land’s ownership to the City is proceeding as planned.



52
     Denali grant # 1275.
53
     This release would be similar to the “termination statement” for a security interest under AS 45.29.513(c).
54
  See City of Hydaburg v. Hydaburg Cooperative Association, 858 P.2d 1131 (Alaska 1993). See also In re Joliet-Will County
Community Action Agency, 847 F.2d 430 (7th Cir. 1988).
55
  Denali Commission Act sec. 305(a) provides that “[a]gencies may, upon request by the Commission, make services and
personnel available to the Commission to carry out the duties of the Commission.”
56
     See Alaska Energy Authority subaward # 340240, Appendix B1, sec. 7, and Appendix B2, sec. 3.
57
     See Business Operating Plan of the Gustavus Bulk Fuel Facility, Aug. 10, 2009, pages 2, 4, 8, 9.
58
     The State of Alaska, Dept. of Natural Resources, Division of Mining, Land and Water.
Denali OIG inspection of                                      13                                         April 15, 2013
state subaward # 340240


There is thus no reason to think that the City will not get fee simple title to the tank farm’s land
before the temporary land use permit expires in June 2013. The tank farm itself has the legal
status of an attached “fixture.”59 Under basic property law, the fee simple title to land implicitly
includes any fixtures present at the time of transfer.60 The title to such improvements is said to
“merge” with the title to the underlying land.61 Or, put it another way, transfer of the land from
one state agency automatically includes any fixtures previously attached by another state agency.

A Gustavus official recently expressed his assumption that “the city had no responsibility in the
construction of the tank farm other [than] to accept it when it was complete.”62 But OIG
disagrees with this assumption of dependency, given the City’s responsibility for “site control”
under its grant agreement with the State:

            If the grant Project involves the occupancy and use of real property, the Grantee
            assures that it has the legal right to occupy and use such real property for the
            purposes of the grant, and further that there is legal access to such property. The
            Grantee is responsible for securing the real property interests necessary for the
            construction and operation of the Project, through ownership, leasehold,
            easement, or otherwise, and for providing evidence satisfactory to the [State] that
            it has secured these real property interests.63

In other words, the solution to the City’s concern over its title lies with the City itself. Under
basic property law, title to the fixture will merge with the title to the underlying land that the City
has committed to secure.

Nevertheless, the City should recognize that this final transfer of the land, with its “fixture,” will
represent the City’s receipt of over $500,000 in annual “federal financial assistance.” Federal law
requires that grantees who cross this threshold obtain a “single audit” from a CPA firm. 64 And
the new tank farm obviously has a value of well over $500,000.

When the State constructs a powerhouse or tank farm for a community, OMB agrees that the
project is subsumed within coverage of the State’s own audit of its annual federal assistance.
However, in the unusual case of Gustavus, the agency head released the State from its troubled



59
  See K & L Distributors v. Kelly Electric, 908 P.2d 429 (Alaska 1995); Interior Energy Corporation v. Alaska Statebank, 771
P.2d 1352 (Alaska 1989); Rayl v. Shull Enterprises, 700 P.2d 567 (Idaho 1984); National Union Fire Insurance v. Structural
Systems Technology, 964 F.2d 759, 762 (8th Cir. 1992).
60
     See Denny Wiekhorst Equipment v. Tri-State Outdoor Media, 693 N.W.2d 506, 512 (Neb. 2005).
61
     See Dutchmen Mfg. v. Reynolds, 849 N.E.2d 516, 520 (Indiana 2006).
62
     Email dated Jan. 17, 2013 to OIG.
63
     See Alaska Energy Authority subaward # 340240, Appendix B1, sec. 2.
64
     See 31 USC 7502; 31 USC 7501(a)(5); OMB Circular A-133 sections 200(a), 205(a), 205(g).
Denali OIG inspection of                                       14                                              April 15, 2013
state subaward # 340240


relationship as the project manager. Denali then directly assumed the responsibility to complete
Gustavus’ tank farm.65

In other words, Denali replaced the State and substituted itself into a direct relationship with
Gustavus as its federal grantee. Though Gustavus has so far never had an audit, it will now need
to obtain one (for its FY 201366) from a CPA firm under the standards of OMB Circular A-133.

Section 4.08.020 of the Gustavus Municipal Code explicitly authorizes the city council to obtain
audits.

4. The “business operating plan” had no legal effect in itself.

At first glance, this matter begs the question as to how many lawyers it takes to install five fuel
tanks in a hamlet of less than 500 people. All four sides67 “lawyered up,” starting with the
inevitable FOIA request. However, while the lawyers were debating who had the responsibility
to do what for whom, the engineers simply went ahead and completed the facility.

The essence of the dispute lies in a set of documents that Denali commonly uses for this type of
grant. Various incorporations by reference link the documents together to collectively function as
the grant agreement.

For Gustavus’ tank farm, considerable institutional energy has been expended in a debate over
the significance of the “business plan.” The debate persists because this document’s use and
effect vary from project to project.

The State retains a contractor to develop a “business operating plan” for each tank farm built
with Denali funding. While the completed facility is provided without charge to the recipient,
the plan’s template estimates the fees and expenses that local users must bear to keep the facility
functioning over the next 30 to 40 years.

This business plan’s narratives and spreadsheets can run for many pages. For the Gustavus tank
farm, the State contracted for a business plan that extends for 49 pages (not including the copies
of five other documents attached for reference).

Nevertheless, a “plan” is not a “promise.” The business plan has no legal status in itself. Its role
depends upon the context of a particular subaward.



65
     See Amendment 4, dated April 7, 2011, to Denali grant # 331-07.
66
   Per OMB Circular A-133 sec. 205(a), “the receipt of property” is the point that determines the fiscal year subject to the audit.
The State will presumably complete its title transfer for the underlying land — which includes the tank farm as an attached
“fixture” — before June 30, 2013. The required single audit will then be for the City’s fiscal year ending June 30, 2013.
67
     Gustavus Dray (fuel vendor); City of Gustavus; State of Alaska; Denali Commission.
Denali OIG inspection of                                      15                                             April 15, 2013
state subaward # 340240


If the business plan is produced before the project is selected, the plan can aid in the screening of
grant applications for local “capacity” to successfully support the facility. The resulting award
can also specify that the plan will be incorporated by reference as part of the enforceable terms.
For Gustavus, though, the business plan was produced after the subaward was made and had
neither of these roles.

The business plan may also be incorporated into a security agreement that gives Denali various
enforcement rights if the owner fails to properly support the facility over its useful life of 30 to
40 years. Denali arcanely labels this document as its “secondary operator agreement.” While
such a security agreement was proposed for the Gustavus tank farm, Denali never signed it and it
did not materialize as an enforceable document (discussed below).

The business plan may also be incorporated into a lease with a local business that will actually
operate the tank farm for the public owner. As detailed below, this was the plan’s context at
Gustavus.

And, last but not least, the business plan can simply serve as a form of training or “technical
assistance” to bolster local success with the new facility. Such a public conversation
(“coordination”) can be more beneficial in practice than legal provisions that are binding, but
buried in boilerplate.

5. Denali’s potential security agreement was never effectuated.

The City and a local fuel business (Gustavus Dray) signed a proposed “secondary operator
agreement” in 2009 and forwarded it on to Denali for its signature as the secured party. The
agreement incorporated the business plan by reference and, if effective, would have given Denali
creditor-type enforcement rights68 if there was a default in the expected use and other conditions
during the 40-year life of the facility.

The assumption that Denali would insist upon such a security agreement69 was understandable,
since boilerplate in the business plan had this language:

         The Secondary Operator Agreement references the Plan and includes language
         requiring the Plan be followed. The Plan takes effect after the Secondary
         Operator Agreement is executed. Acceptance of the Plan by execution of the
         Secondary Operator Agreement is prerequisite to funding from the Denali

68
   The potential agreement was couched in the language of the public interest in assuring uninterrupted service. However, the
enforcement remedies described in section 4 were, by any name, the classic ones applied by commercial creditors. The proposal
would have given Denali the right to repossess the facility, seize its inventory, books, cash, and receivables, and hire a
replacement contractor. Denali would, in effect, have the powers to function like a receiver in the event of a default.
69
 The tank farm with pipeage constituted a “fixture” for purposes of secured transactions covered by Alaska’s version of Article 9
of the Uniform Commercial Code. See K & L Distributors v. Kelly Electric, 908 P.2d 429 (Alaska 1995). While security
agreements commonly protect a seller or lender from nonpayment, the security agreement in Denali’s case provides a remedy for
defaults upon other types of obligations — such as the facility’s continuing use, various reporting requirements, and the annual
deposits into a savings account for the facility’s maintenance and eventual replacement.
Denali OIG inspection of                                         16                                      April 15, 2013
state subaward # 340240


            Commission (the “Commission”), which will be provided through a separate
            Grant Agreement (See Attachments).70

In fact, an OMB regulation71 explicitly encourages federal agencies to consider such an option
for some types of grants:

            Agencies may require recipients to record liens or other appropriate notices of
            record to indicate that personal or real property has been acquired or improved
            with Federal funds and that use and disposition conditions apply to the property.
            [emphasis added]

However, section 6 of the proposed security agreement required “[t]he exchange of a fully
executed Agreement.” This is consistent with the basic legal requirement that a security
agreement involve the mutual consent of the secured party and the party required to perform.

Given the ambivalence expressed by both the City and Denali, such an agreement was never
reached. Two mayors wrote Denali late in the game and requested that the agency not sign the
agreement, explaining that the City wanted to renegotiate its arrangement for a tenant to operate
the tank farm.72 And, since Denali never signed, returned, or recorded the proposed security
agreement, it had no legal effect.73

Regardless of Denali’s terms for other projects in other locations, the agency was free to forego
any requirement that it did not choose to include.74 It may have decided, quite legally, that it
wanted to provide the City with a tank farm without becoming enmeshed in “privity of contract”
with the City’s long-term tenant.75

In fact, the State had already executed its subaward to the City by the time that the business plan
was issued. At this point, any Denali requirement for additional assurances of performance
would have constituted a significant unilateral grant modification of questionable legality.76

Even if fully signed, the proposed terms of the security agreement had a potentially fatal flaw.
Sections 5 and 9 provided that any disputes would be decided under state laws in the state court
system. This would be problematic for the Government, given that GAO has previously

70
     See Business Operating Plan of the Gustavus Bulk Fuel Facility, Aug. 10, 2009, page 2.
71
     See 2 CFR 215.37, which applies to grants that federal agencies make to nonprofits.
72
  Letter dated Sept. 26, 2010 from Mayor B to Denali Commission; Letter dated Dec. 10, 2010 from Mayor C to Denali Com-
mission.
73
  See Sea Hawk Seafoods v. City of Valdez, 282 P.3d 359, 364-365 (Alaska 2012). From the technical perspective of commercial
law, Denali’s potential security agreement did not “attach” and was never “perfected.”
74
     See Heckler v. Chaney, 470 U.S. 821 (1985).
75
     See Eubanks v. United States, 25 Cl.Ct. 131, 137-138 (1992).
76
     See Lynch v. United States, 292 U.S. 571 (1934).
Denali OIG inspection of                                          17                                               April 15, 2013
state subaward # 340240


cautioned Denali that “it is a well-established principle that only Congress can waive an
executive agency’s sovereign immunity.”77

Though Denali’s written security interest was never effectuated, the Alaska Supreme Court still
implies a federal “reversionary interest” in the improvements funded through such a grant.
So long as the grant-related property continues to have value, the Government as a general rule
retains this implied federal lien that secures its use for the intended purpose.78 But Denali can, of
course, still record a release of this lien well before 40 years have elapsed, if the agency has no
intention, ability, or need to police the matter that long. 79

6. The City had “buyer’s remorse” after leasing its tank farm for the next 100 years.

The City did not plan to directly operate its new tank farm. Rather, in July 2009, the city council
approved a long-term lease to a local fuel business (Gustavus Dray). The lease incorporates the
terms of the business plan and promises the tenant the “exclusive right” to use the new facility as
well as “quiet and peaceful enjoyment of the Premises” (non-interference).80

Neither the State nor Denali is a party to this lease.

Rent is only symbolic for the lease’s initial term of 50 years ($1 per year). The tenant has a right
to renew for an additional 50 years, with rent to “be mutually agreed upon” or “decided by a
mutually agreeable neutral.”81

In short, the lease on its face appears to commit the City for the next century. Nevertheless,
Mayor “A” signed the lease in September 2009 at the direction of the city council.

But one of the approving council members apparently had “buyer’s remorse” a year later. When
he was selected as Mayor “B,” he wanted out of the arrangement:

            [A] second fuel provider is now in business here serving a substantial share of the
            market. . . The second provider currently lacks access to the existing tank farm
            and so has had to ship fuel to Gustavus in small tanks via landing craft. It is very
            important to the City of Gustavus that our new facility be available for equal use
            by multiple competitive fuel providers and that there be flexibility for renewal of


77
     See GAO, Denali Commission—Authority to Receive State Grants, # B-319246 (Sept. 1, 2010) at www.gao.gov.
78
  See City of Hydaburg v. Hydaburg Cooperative Association, 858 P.2d 1131 (Alaska 1993). See also In re Joliet-Will County
Community Action Agency, 847 F.2d 430 (7th Cir. 1988). Cf. 2 CFR 215.32(a) (grants to nonprofits).
79
     This release would be similar to the “termination statement” for a security interest under AS 45.29.513(c).
80
     See Bulk Fuel Storage and Handling Agreement and Facility Lease, sections 1, 4, 7.
81
     See Bulk Fuel Storage and Handling Agreement and Facility Lease, sections 2, 3.
Denali OIG inspection of                                        18                                            April 15, 2013
state subaward # 340240


            user contracts as frequently as every five years. . . Operation and maintenance of
            the facility by a single user no longer appears appropriate. . .82

And similar regret was later expressed by another city council member who had voted in favor of
the 100-year agreement:

            What has been done is one single individual, a private business with taxpayer
            money, has gained a tremendous asset to his business for $1 a year. . . [H]ow
            could anybody possibly think about coming to town and starting another business
            or competing with the grant at this point in time. . . [T]he big problem is the
            monopoly situation. . . [I]s this a standard deal, this 50-year lease? I mean, I,
            really, as a businessman, would never sign anything like that. . .83

And Mayor “C” expressed his similar concern when Denali’s agency head held a regional
“listening session:”

            [T]he way AEA [the State] set this up there was to be a 50-year exclusive contract
            renewable for another 50 years, this is a century, for the fuel distributor in
            Gustavus to operate this tank farm. And it was a -- this was built with, you know,
            taxpayer dollars, two million of them. And it's going to support -- if this -- if this
            actually comes to fruition it's $2 million of taxpayer money going to support a
            monopoly for 100 years for fuel distribution in Gustavus. And we think that's
            unconscionable here.84

In other words, the City had changed its mayors and changed its mind.

This issue of the City’s long-term lease is the core of the conflict that has now extended for
longer than it took to construct the facility itself. In fact, the City has continued to file complaints
with Denali’s agency head as recently as the past month.85


7. The City’s implicit antitrust arguments require further study to resolve.

In the strong rhetoric of this debate over competition, recent city officials are implicitly
questioning whether their predecessors’ choices were consistent with federal antitrust laws. They
openly assert that their local government has effected a long-term “monopoly” and obstructed
new entrants to the market.



82
     Letter dated Sept. 26, 2010 from Gustavus mayor to Denali Commission.
83
     See pages 235-237 of the transcript of the Denali Commission’s public meeting held in Juneau, Alaska on Feb. 23, 2012.
84
     See pages 42-43 of the transcript of the “Denali Commission — Listening Session” held in Juneau, Alaska on April 1, 2011.
85
     Letter dated March 19, 2013 from Gustavus mayor to Denali Commission.
Denali OIG inspection of                                          19                                              April 15, 2013
state subaward # 340240


Such admissions by Gustavus officials present a serious legal issue under a case decided two
months ago by the U.S. Supreme Court. In that case, the Court reiterated that local governments
are subject to federal antitrust liability unless state law sanctions their grant of a monopoly.86
And for over 20 years, that has also been the legal position of the U.S. Court of Appeals that
serves Alaska.87

Nevertheless, this complex issue is beyond the scope of OIG’s inspection. We are referring it to
the Federal Trade Commission for such further study as that regulator deems warranted.88 Given
the length of the City’s arrangement, potential new entrants could conceivably raise the issue
over the next century.

This issue obviously presents the parties with a long-range uncertainty that is the antithesis of the
years of predictability they had hoped to achieve.

8. A lease for 100 years is not inherently illegal.

The duration of this lease is indeed a full century if the tenant chooses to renew. Since it would
obviously outlive all current City leaders, OIG understands the possible perception that the
distant “Crown” is sanctioning a sentence “for the term of their natural lives.”

However, despite the protests of the City’s leaders, a lease for 100 years is legally permissible in
Alaska — and many other places.

Well-known examples are the “99 year leases” for Hong Kong and the land underlying American
skyscrapers — or perhaps the 9,000 year lease to a famous brewery in Dublin.89 Another
example would be the 1988 collapse of a 2,000-foot antenna tower in Missouri, on land which a
broadcaster had leased “for a term of fifty years, renewable for terms of twenty-five years up to a
total of fifty years.”90




86
  See Federal Trade Commission v. Phoebe Putney Health System, 133 S.Ct. 1003 (2013). See also Community Communi-
cations Company v. City of Boulder, Colorado, 102 S.Ct. 835 (1982).
87
     See Lancaster Community Hospital v. Antelope Valley Hospital District, 940 F.2d 397 (9th Cir. 1991).
88
     This is an appropriate approach to this arcane issue under Inspector General Act sections 4(a)(4) and 6(a)(3).
89
   See www.guinness.com/en-us/thestory-1750.html. But www.guinness-storehouse.com goes on to somewhat deflate the long-
term mystique:
          The 9,000 year lease signed in 1759 was for a 4 acre brewery site. Today, the brewery covers over 50 acres,
          which grew up over the past 200 years around the original 4 acre site. The 1759 lease is no longer valid as the
          Company purchased the lands outright many years ago.
90
     See National Union Fire Insurance v. Structural Sys. Tech., 756 F.Supp. 1232, 1235-1236 (E.D. Missouri 1991).
Denali OIG inspection of                                       20                                      April 15, 2013
state subaward # 340240


Unless state law limits the length of a lease, the general rule is that “[a] landlord-tenant
relationship may be created to endure for any fixed or computable period of time.”91 The iconic
case from Delaware states that “[t]here being no statute in this state to the contrary, the law
permitted the lease notwithstanding its length of two thousand years.”92

In fact, Congress has specifically authorized93 many tribal entities to lease their land for 99 years:

         As business opportunities and economic considerations changed over time, leases
         longer than 25 years were desired. To facilitate economic development on trust
         lands, over the years, a number of tribes have obtained amendments to the Long-
         Term Leasing Act so that they could enter into leases for terms longer than 25
         years. Approximately 50 tribes have obtained these amendments and all are listed
         in the Long-Term Leasing Act as having authority to enter into leases for terms as
         long as 99 years.94

And the Alaska Supreme Court has found a school district’s 55-year lease of local land for
a dollar a year to not be “unconscionable.” The court noted four other communities in the district
that had the same type of 55-year lease for the land underlying the local schoolhouse.95

9. The City had repeated opportunities for a legal escape from its 100-year lease.

The City now wants out of its perceived Faustian bargain. But the City’s position is initially not
one that draws sympathy, given the repeated opportunities that its process allowed for
reconsideration and reversal.

Public minutes for the city council show that it discussed the proposed lease at five meetings
during 2009, including two in which the City’s legal counsel participated.96 Further, there was a
50-day gap between the date on which the council authorized the mayor to sign and when he
actually signed the lease. Under basic contract law, there was arguably no offer on the table until
the signed document was sent on to the tenant.97




91
   See Restatement (Second) of Property, Landlord & Tenant sec. 1.4 (1977), which lists state laws around the country that
restrict the time period of leases.
92
     See Monbar, Inc. v. Monaghan, 162 A. 50, 52 (Delaware Court of Chancery 1932).
93
     See 25 USC 415.
94
     See Senate Report 110-480 at page 2.
95
     See Askinuk Corporation v. Lower Yukon School District, 214 P.3d 259, 268 (Alaska 2009).
96
     See http://cms.gustavus-ak.gov/government/council/meetings.
97
     See AS 09.25.010(a)(6); AS 09.25.010(b).
Denali OIG inspection of                                       21                                          April 15, 2013
state subaward # 340240


In fact, there was a further gap of nine months between the mayor’s signature in 2009 and the
tenant’s signature in 2010. Basic contract law would presumably have allowed the City to
withdraw its offer before the tenant signed with its acceptance.98

However, even after both parties had signed the lease, the rental period did not actually begin
until the State issued its “notice of substantial completion” for the facility. And the lease
explicitly allowed either signer to unilaterally cancel if the State had not issued its notice by
December 31, 2010.99

Since the State did not issue this notice until March 2011, the City had yet another gap
(two months) in which to effect its escape. And, since the subaward gave the City a period of
30 days to challenge the notice, the City arguably had the opportunity to extend the lease can-
cellation window even further while the “substantial completion” appeal was being decided.100

The City had a new mayor during this gap (Mayor “C”), and the city council’s minutes                                      for
February 2011 reflect a two-hour executive session over the tank farm dispute. Despite                                    the
protest in Mayor B’s letter of September 2010 (quoted above), Mayor C did not exercise                                    the
right to cancel that the lease provided. Nor did he challenge the important state notice that                             the
project had been substantially completed.

In short, the 100-year lease was hardly an irreversible “impulse purchase.”

10. The Denali Commission properly declined to lock the tenant out.

Though the City had the right to cancel the lease for some time, Mayor C instead instructed
a Denali employee to take the following forcible action against the City’s tenant:

            I was fairly amazed to know that Gustavus Dray’s locks were on the tank farm.
            The tank farm is public property, and having Gustavus Dray’s locks on it looks
            entirely too cozy and is of questionable legality. I would advise you to quickly
            notify Gustavus Dray to remove their locks and have Denali Commission locks
            installed. You can send locks or the city can get them and the city can put them on
            and keep the keys in City Hall. This will assert the Denali Commission's control
            over the project. If Gustavus Dray's locks remain, it will appear that the Denali
            Commission is AEA [the State grantee] in different clothing.101



98
  The offeror can revoke its offer up until acceptance. See Restatement (Second) of Contracts, sections 36(c), 42; Copper River
School District v. Traw, 9 P.3d 280, 286 (Alaska 2000). See also Franchises from Public Entities, 36 Am.Jur.2d sec. 7 (“[U]ntil
accepted by the grantee, a grant of a franchise is a mere offer that may be withdrawn by the sovereign at any time.”).
99
     See Bulk Fuel Storage and Handling Agreement and Facility Lease, sections 2 and 21.
100
      See Alaska Energy Authority subaward # 340240, Appendix B2, sec. 3.
101
      Email dated March 26, 2011 from Gustavus mayor to Denali Commission.
Denali OIG inspection of                                       22                                    April 15, 2013
state subaward # 340240


While the City’s lease promised the tenant “quiet and peaceful enjoyment of the Premises,”102
Mayor C was nevertheless insisting that a federal employee function like a judge in a suit to
physically evict a tenant (forcible entry and detainer). When the federal employee did not
quickly respond to these instructions, the City again requested the Alaska Municipal League to
intercede as the City’s advocate:

            [The tenant] seems to be attempting to assert some sort of ownership or control of
            the tank farm. It seems this issue is far from being resolved. As always, thanks for
            your interest and help.103

However, the lockout requested by the City was not consistent with Alaska law. Such self-help
by a landlord is only legal if the lease provides for it, or the tenant is behind in rent.104 Neither
scenario is the case here.

The City’s lease has a 365-word section105 entitled “Breach, Termination and Remedies.” It
details various processes and timelines for notice, cure, alternative dispute resolution, and the last
resort of litigation. Construing these provisions together, a non-judicial lockout would arguably
be allowed only if the tenant abandoned the property or began using it for something other than a
tank farm. For any lesser defaults, the lease seems to presume that physical removal of the tenant
will be left for a court to accomplish through the traditional remedy of forcible entry and
detainer.

In past centuries, federal officials in coastal Alaska were both less common and more
empowered to physically mete out summary justice.106 But those days are long past, and the
federal employee here correctly understood that she did not have the authority to act as the City’s
enforcer in effectuating the self-help of a lockout.

In fact, such unilateral joint action could have subjected both levels of government to a suit
under the federal civil rights law for interference with the tenant’s property rights. While federal
agencies are not normally subject to such suits, that immunity can be compromised if federal
officials join with local officials in committing violations. The U.S. Court of Appeals that serves
Alaska has over the years issued a series of decisions that caution officials in this regard.107



102
      See Bulk Fuel Storage and Handling Agreement and Facility Lease, sec. 7.
103
      Email dated March 29, 2011 from Gustavus mayor to Alaska Municipal League.
104
      See AS 09.45.690; Sengul v. CMS Franklin, Inc., 265 P.3d 320, 324-327 (Alaska 2011).
105
      Section 9.
106
    See Letter from the Secretary of the Treasury, Senate Ex. Doc. 37, 44th Congress, 1st Session (March 1876). See also
Truman R. Strobridge and Dennis L. Noble, Alaska and the U.S. Revenue Cutter Service 1867-1915 (Annapolis, Md.: Naval
Institute Press, 1999).
107
  See Scott v. Rosenberg, 702 F.2d 1263, 1269 (9th Cir. 1983); Merritt v. Mackey, 827 F.2d 1368, 1372 (9th Cir. 1987);
Cabrera v. Martin, 973 F.2d 735, 742 (9th Cir. 1992); Billings v. United States, 57 F.3d 797, 801 (9th Cir. 1995).
Denali OIG inspection of                                        23                                          April 15, 2013
state subaward # 340240



11. The 100-year “lease” is void and unenforceable.

However, OIG concludes that the 100-year lease is void and unenforceable — for reasons other
than the general distaste that Gustavus’ leaders of the moment seem to have for it.

State and local laws prescribe specific procedures for such an arrangement. And the City did not
follow those procedures. Case law around the country indicates that the attempted agreement is
invalid when a city skips the required prerequisites that protect the public.108

The full title for the parties’ agreement is “Bulk Fuel Storage and Handling Agreement and
Facility Lease.” This strongly suggests that the tenant is agreeing to perform a beneficial activity
using the City’s fixture (the “facility”), rather than simply occupying a piece of real estate. And,
unless the City is agreeing to give away its new asset (unlikely), the symbolic “rent” of only a
dollar a year further indicates that the City is obtaining something else for the public in return.

The Gustavus Municipal Code requires a competitive process for the procurement of services
over $5,000.109 To the extent that the City was contracting for 50 years of operator services for
its new tank farm, the City certainly conveyed more than $5,000 in value to the vendor. Though
the city council had a series of discussions before approving the lease, OIG found no evidence in
the minutes of a competitive award.

The disputants have in practice labeled the City’s long-term agreement with Gustavus Dray as a
“lease.” However, it is the substance of the transaction — rather than the parties’ shorthand —
that determines the required legal formalities.110 Based upon case law from around the country
(discussed below), OIG concludes that the document functioned in substance as the City’s grant
of a 100-year public “franchise.”

Both Alaska law and the Gustavus Municipal Code require that a city follow the formal process
for adopting an “ordinance” when granting a franchise.111 However, the city council’s minutes
reflect that it approved the 100-year “lease” with only a “motion.”112


108
   See Quality Towing v. City of Myrtle Beach, 547 S.E.2d 862, 866-867 (S.C. 2001); Berkeley Elec. Co-op v. Town of Mount
Pleasant, 417 S.E.2d 579 (S.C. 1992); City of Gary v. Major, 822 N.E.2d 165 n.3 (Indiana 2005); Shaw v. City of Asheville, 152
S.E.2d 139, 146 (N.C. 1967); McBirney & Associates v. State of Alaska, 753 P.2d 1132 (Alaska 1988); Miller v. Marshall
County, 641 N.W.2d 742, 750-752 (Iowa 2002); Failor’s Pharmacy v. Dept. of Social and Health Services, 886 P.2d 147, 153
(Wash. 1994); Franchises from Public Entities, 36 Am.Jur.2d sec. 15; Municipal Corporations, 56 Am.Jur.2d sec. 466.
109
      See Gustavus Municipal Code sec. 4.17.020(a).
110
   See Shaw v. City of Asheville, 152 S.E.2d 139, 144 (N.C. 1967) (“The fact that this agreement is denominated by the parties
a ‘Lease-License Agreement’ is not controlling. Its nature, not its title, determines the power of the city to enter into it.”);
MAC Amusement Company v. State, 633 P.2d 68, 71 (Wash. 1981) (“In contrast to a leasehold, a monopoly right when conferred
by a municipality is usually a franchise.”).
111
      See AS 29.25.010(a)(5); Gustavus Municipal Code sec. 1.02.020(a)(9).
112
      Minutes for the July 16, 2009 meeting of the Gustavus City Council.
Denali OIG inspection of                                         24                                            April 15, 2013
state subaward # 340240


Alaska law provides even stronger protection for the public when the grant of a franchise
exceeds five years.113 The statute requires either a competitive process or the approval of local
voters. In fact, the Gustavus Municipal Code seems to require the same if the City leases its
property to a business corporation (instead of a nonprofit) for less than fair market value in order
to provide “a necessary public service.”114

But, again, OIG saw no evidence in the minutes                                                 EXHIBIT 5
of a competitive award. Nor did we find any                                   LANGUAGE FROM 100-YEAR “LEASE”
evidence that the agreement had been submitted                               INDICATIVE OF A PUBLIC “FRANCHISE”
to local voters for their approval.
                                                                          Section 22 (“Public purpose and use”):
Alaska law unfortunately provides little guidance
as to what municipal arrangements constitute a                            “The site for the Facility will be conveyed to
“franchise.” However, case law from around the                            Gustavus pursuant to AS 38.05.810(a) which re-
                                                                          quires that the conveyance serve a public purpose
nation has emphasized a variety of character-                             and is in the public interest. The Parties agree that
istics: (1) service in the public interest,115 (2) a                      the conveyance and the associated development of
favored position in local competition,116 (3) a                           the Facility will serve a public purpose and be in the
                                                                          public interest because the existing fuel storage in
utility-like distribution system;117 (4) infrastruc-                      the City of Gustavus is failing and the Facility is
ture in a public right-of-way.118 On the other                            essential to assure a reliable site for bulk fuel
hand, status as a “franchise” does not assume an                          storage which is essential to the continued vitality of
                                                                          the City of Gustavus. Article IX of the Business
absolute monopoly119 or regulation by a state                             Operating Plan requires annual reporting by the
utility commission.120                                                    lessee of annual O&M and R&R costs, providing
                                                                          assurance that the Facility will be operated for a
                                                                          public purpose and in the public interest during the
The City’s “lease” appears to meet all of these                           term of this lease. [emphasis added]”
case law characteristics for a “franchise.”

Section 22 of the “lease” (see EXHIBIT 5) establishes sustainable service to the public as the
expected performance standard. This is supported by the lack of all but symbolic rent
($1 annually) for at least the first 50 years. Since a city is unlikely to donate a new $1.9 million


113
      See AS 29.35.060(b).
114
      See Gustavus Municipal Code sec. 10.06.05.
115
   See In re O’Harra Bus Lines, 12 Alaska 129 (D. Alaska Terr. 1948); Burns v. City of Seattle, 164 P.3d 475, 483 (Wash.
2007); Franchises from Public Entities, 36 Am.Jur.2d sec. 1.
116
   See MAC Amusement Company v. State, 633 P.2d 68, 71 (Wash. 1981); Quality Towing v. City of Myrtle Beach, 547 S.E.2d
862, 866-867 (S.C. 2001).
117
   See In re O’Harra Bus Lines, 12 Alaska 129 (D. Alaska Terr. 1948); Burns v. City of Seattle, 164 P.3d 475, 483 (Wash.
2007).
118
  See City of Tacoma v. City of Bonney Lake, 269 P.3d 1017, 1020 (Wash. 2012); Burns v. City of Seattle, 164 P.3d 475, 483
(Wash. 2007); Shaw v. City of Asheville, 152 S.E.2d 139, 145 (N.C. 1967); Franchises from Public Entities, 36 Am.Jur.2d sec. 1.
119
      See Quality Towing v. City of Myrtle Beach, 547 S.E.2d 862, 866-867 (S.C. 2001).
120
      See Shaw v. City of Asheville, 152 S.E.2d 139, 145 (N.C. 1967).
Denali OIG inspection of                                         25                                   April 15, 2013
state subaward # 340240


asset to a private business, the essence of the 100-year transaction is to promote the permanent
availability of a local service to the public.

The operations manual, required by the Coast Guard, openly acknowledges the tank farm’s status
as a public monopoly:

            The Facility provides storage for virtually all of the unleaded gasoline, aviation
            gasoline, #1 diesel, and #2 diesel fuel imported into the community for power
            generation, public building heating, retail sales and marine fueling. . .121

Similar language appears in the State’s formal decision to convey its land to the City for the new
tank farm. The latter replaces the old tanks that were

            used for storing virtually all of the #1 diesel, # 2 diesel, unleaded gasoline and
            aviation fuel imported into Gustavus. The fuel is used for community power
            generation and local heating fuel deliveries as well as retail dispensing at the gas
            station and airport.122

And the lease itself123 provides that “[t]he City hereby leases to Gustavus Dray the exclusive
right to use, operate and maintain a bulk fuel storage and handling Facility, constructed on the
following real property . . .”

Though tank farms aren’t regulated by the state utility commission, section 8 of the “lease” still
requires “reasonable and prudent utility practices.” This seems appropriate since the tank farm
with its pipeage is a form of ship-to-shore distribution system — analogous to the wiring that
connects bush residents with their local “earth station” for phone, Internet, and cable television.
Or the buried pipes that commonly transmit natural gas in the neighborhoods of the Lower 48.

Indeed, Denali’s grant that funded the tank farm explicitly states that, “[a]s a precondition of
construction funding, a project must demonstrate that it is part of a sustainable electric utility or
bulk fuel system.”124

But an important purpose of such Denali grants is to prevent the damage from leaking tank farms
and from coastal fuel spills during barge deliveries. While the risk from the tanks themselves can
be minimized through containment dikes, the larger risk lies along the route that the fuel must
transverse from the barge as the tanks are filled.


121
      See Marine Transfer Operations Manual (May 2011), page 1.
122
  Alaska Dept. of Natural Resources, “Land Conveyance to City of Gustavus under AS 38.05.810(a),” Preliminary Decision re
ADL 107623 (April 2, 2008), page 2.
123
      Section 1.
124
      Denali award # 331-07 to the State of Alaska, award condition 12.
Denali OIG inspection of                                      26                                            April 15, 2013
state subaward # 340240



Thus, much of this facility’s value lies in the 1,700-foot pipeline that traverses the public right-
of-way, the causeway, and the public ferry dock. At the end of the dock, delivery barges unload
fuel into the pipeline’s “marine header.” At the other end of the pipeline, trucks take the stored
fuel further down the road to supply homes, vehicles, airplanes, and the local powerhouse.

In other words, a key element of the facility is the long delivery pipeline — rather than just the
set of small tanks at the end of the line. This is why the business plan125 proposed the following:

            Pipeline Easements / Right of Ways: The City will acquire, from the State of
            Alaska Department of Natural Resources, a 4,155′ x 10′ easement along the east
            side of Dock Road for purposes of routing fuel lines to the Facility and to the
            Gustavus Dock.

The tanks, the pipeline, and the dock all lie within the city limits. The tank farm itself has a
relatively small footprint of around 16,000 square-feet126 on a roadside tract that the City ob-
tained specifically for this purpose. More technically, the City obtained this tract under a state
land use permit127 pending a full conveyance of title from the State under AS 38.05.810(a)
(“public and charitable use”).

However, the land survey for the State’s conveyance128 shows that this small footprint is
overshadowed by the State’s dedication of an additional 49,000 square-feet129 of roadside right-
of-way for burying the pipeline on its way to the end of the public dock. The need for this is
understandable given that the “pipeline” actually consists of three separate pipes — each
3 inches in diameter — that are together buried several feet deep along with a related electrical
control cable.

After the land was surveyed, Mayor C signed the following statement on the surveyor’s plat:

                                              ACCEPTANCE OF DEDICATION

            The Mayor hereby accepts for public uses and for public purposes the real
            property dedicated to the public by this plat including easements, rights-of-ways,
            alleys, and roadways shown on this plat. . .



125
      Page 8.
126
    OIG’s estimate is based on the distances shown on the site plan submitted to the State for land use permit ADL 107623. Our
estimate includes the surrounding berm and fencing, as well as the storage units and truck loading area.
127
      State land use permit ADL 107623.
128
      Alaska State Land Survey No. 2009-15.
129
   A note on the plat for ASLS 2009-15 states that the “right-of-way dedicated by this plat” is “1.128 acres,” which converts to
49,136 square-feet.
Denali OIG inspection of                                       27                                           April 15, 2013
state subaward # 340240



In other words, the State signed over significant roadside property rights to the City — who in
turn awarded their use to a private corporation for the next 50 to 100 years. OIG thus concludes
that the long-term “lease” was in true substance the City’s grant of a public “franchise.”

And, due to the missing procedural prerequisites, we find the 100-year arrangement — whether
labeled as a franchise, lease, or service contract — to be invalid for the purposes of our
inspection of Denali’s grant.

However, we are quick to recognize that our opinion is just our opinion. The “primary
jurisdiction” to authoritatively decide the lease’s status now lies with the Alaska Court System in
the context of an action to quiet title,130 an action to decide the tenancy,131 a suit to set aside the
franchise,132 a declaratory judgment to decide “rights and legal relations,”133 or a suit alleging
one of the business interference torts recognized by state law.134 And that is the setting that offers
the final answer as to whether there are equitable (fairness) grounds for legally requiring
modification, rescission, or disregard of the agreement.

OIG recognizes that the tenant is currently in possession of the facility with both an inventory of
fuel and what it considers to be a long-term lease that promises “quiet and peaceful enjoyment of
the Premises.” In hopes of defusing this escalating legal dispute, OIG arranged for six months of
mediation from the respected Federal Mediation and Conciliation Service. 135 While the mediator
assisted OIG greatly in clarifying the issues, the City and Gustavus Dray were unfortunately
unable to reach a voluntary resolution of their lease dispute.

12. Remediation of the prior tank farm was not within the scope of Denali’s grant.

Despite all of Denali’s investment and intervention in tiny Gustavus, OIG noted a common
expectations gap that was fortunately resolved by other agencies.

The State’s site plan for the new facility shows the old tank farm next door, with the notation
“existing tank farm to be abandoned in place.”



130
      See AS 09.45.010.
131
      See AS 09.45.070, AS 09.45.630.
132
   See Franchises from Public Entities, 36 Am.Jur.2d sec. 17. But see Alaska Rule of Civil Procedure 91(a) (Alaska does not use
the remedy of quo warranto.).
133
      See AS 22.10.020(g); McBirney & Associates v. State of Alaska, 753 P.2d 1132 (Alaska 1988).
134
   See K & K Recycling v. Alaska Gold Co., 80 P.3d 702, 717 (Alaska 2003); Alaska Marine Pilots v. Hendsch, 950 P.2d 98
(Alaska 1997).
135
  See www.fmcs.gov. This is an appropriate use of OIG resources under Inspector General Act sections 4(a)(4), 6(a)(9), and
8G(g)(2).
Denali OIG inspection of                                         28                                               April 15, 2013
state subaward # 340240


In a 2010 letter to the Denali Commission,136 Mayor “B” seemed to anticipate that the
Government would both build the City a new tank farm and remediate the old one:

            The project is nearing completion with the laying of new fuel lines along the dock
            to the tanks. Removal of the old tanks and site remediation also remain to be
            done. We trust that the fuel lines will be completed before winter sets in, but we
            understand that the old tanks cannot be removed until the fuel in them has been
            dispensed. We look forward to operating our completed and fully compliant bulk
            fuel facility.

However, cleanup of the neighboring “brownfield” wasn’t within the scope of work under either
the State’s grant to the City or the underlying grant from the Denali Commission. And this is
neither an oversight nor a new limitation on Denali’s grants.

OIG described the longstanding issue as follows in an inspection report some years back:137

            [L]ike other Denali-funded energy projects, there was an implicit “mammoth” in
            the room that Denali has limited ability to resolve.

            While Denali funds the construction of new generators and tank farms around the
            state, Denali doesn’t try to remove their rusting predecessors — or remediate the
            soil they’ve contaminated over the decades. Communities periodically voice this
            disappointed expectation to Denali’s management. . .

            Though the Denali Commission out of necessity sidesteps this resident
            “mammoth” of brownfield cleanup, it still casts a shadow over the agency’s
            ultimate historical success in solving Alaska’s frontier problems.

Environmental remediation — like the relocation of communities after disasters — is a costly
mission that Congress so far hasn’t funded at the Denali Commission.

The old tanks in Gustavus belonged to the FAA for almost 40 years, and the site’s remediation in
this case was fortunately accomplished through agencies other than Denali.

13. Use of Denali’s “base” appropriation for this facility presents a question of federal law.

Congress provided Denali with an FY 2007 “base” appropriation of $50 million that was
available for “[f]or expenses of the Denali Commission including the purchase, construction,
and acquisition of plant and capital equipment as necessary and other expenses . . .”138


136
      Letter dated September 26, 2010.
137
      See Denali OIG’s inspection report for Nikiski, Alaska (Sept. 2008), pp. 9-10, at www.oig.denali.gov.
138
      See P.L. 109-103, title IV, 119 Stat. 2282, which was extended for FY 2007 by P.L. 110-5 (Feb. 15, 2007).
Denali OIG inspection of                                         29                                               April 15, 2013
state subaward # 340240


As required by Denali’s distinctive enabling act,139 the agency head asked a statutory panel of
six beneficiaries to identify how this money should be spent. The Alaska Municipal League
(the complainant here), the Associated General Contractors, and the State of Alaska are members
of this statutory panel.140

As required by the enabling act,141 this board of beneficiaries publicly voted on a “work plan”
that expressed their collective preference as to how the agency head should spend Denali’s
funding. The work plan stated in pertinent part that $27 million from Denali’s “base”
appropriation should be used for “bulk fuel [tank farms], RPSU [powerhouses], etc.”142

The agency head respected this request and responded by awarding grant # 331-07 to the State
for $10.8 million to construct such projects in 17 locations around Alaska. Eight of these were to
design or build powerhouses for AML members. Two were for fuel storage tanks for AML
members, including the tank farm in Gustavus.

At first glance, this application of Denali’s “base” appropriation to Gustavus’ tank farm would
seem uncontroversial. Congress indeed provided that the “base” funding for FY 2007 was
available for “the purchase, construction, and acquisition of plant and capital equipment as
necessary . . .”143

However, Congress has also directed that certain interest earned on the Oil Spill Liability Trust
Fund (Trust Fund) will be used by Denali “to repair or replace bulk fuel storage tanks in
Alaska.”144 The agency’s failure to use this more specific source for Gustavus’ tanks presents an
issue under federal appropriations law.

When an agency has an appropriation for a specified purpose, it is usually barred from using a
more general appropriation for that same purpose.145 Congress is considered to have signaled an
implicit ceiling on the agency’s spending for the specified purpose. To spend more than the
specific appropriation for that purpose is considered an unlawful “augmentation” of the general
appropriation, that is, a violation of the Antideficiency Act.146

139
      See Denali Commission Act sections 303(b) and 304(a).
140
      See Denali Commission Act sec. 303(b)(1)(C).
141
      See Denali Commission Act sec. 304(a).
142
   See Denali Commission FY07 Work Plan, page 5, and Minutes for the Denali Commission Quarterly Meeting (May 31,
2007), page 15. See also 72 Federal Register 19479 (April 18, 2007).
143
      See P.L. 109-103, title IV, 119 Stat. 2282, which was extended for FY 2007 by P.L. 110-5 (Feb. 15, 2007).
144
    See 42 USC 3121 note, P.L. 105-277, div. C, title III, 112 Stat. 2681-640 to 112 Stat. 2681-641, as amended by P.L. 106-31,
title 1, sec. 105, 113 Stat. 63; 43 USC 1653 note, P.L. 105-277, div. A, sec. 101(g), 112 Stat. 2681-470.
145
   See GAO, Principles of Federal Appropriations Law, 3rd ed., vol. I, pages 2-21 to 2-23, 4-29. The Comptroller General has
previously addressed the boundaries of the Oil Spill Liability Trust Fund in two decisions involving the U.S. Coast Guard. Both
decisions involved augmentation issues. See GAO decisions # B-289209 and # B-255979 at www.gao.gov.
146
      See GAO, Principles of Federal Appropriations Law, 3rd ed., vol. II, pages 6-162 to 6-164.
Denali OIG inspection of                                      30                                          April 15, 2013
state subaward # 340240



The issue is further complicated by the Energy Policy Act of 2005 which “authorized” — but did
not actually fund — Denali’s “replacement and cleanup of fuel tanks” for “fiscal years 2006
through 2015.”147 While Congress could have incorporated this authorization into Denali’s base
appropriation for FY 2007, it did not. Permissible use of the base appropriation thus remains
unsettled.

The U.S. Comptroller General is the authoritative “booth referee” for legal interpretations of
Congress’ appropriations.148 OIG has applied for such a ruling to resolve this issue with a safe
harbor for all concerned.149

In retrospect, this legal uncertainty should have been proactively resolved when the agency head
and Secretary of Commerce conducted their statutory review of the work plan forwarded by the
board of beneficiaries.150 But it wasn’t — and it now remains for the Comptroller General to
decide whether a violation of the Antideficiency Act occurs when the general “base”
appropriation is spent for the specific use of a tank farm.151


                                                         EPILOGUE

Denali has made a sizeable investment of over $7 million in Gustavus during the city’s short
lifespan of less than 10 years.

But tiny Gustavus is still learning to be city. Its city council consists of unpaid volunteers, who
annually pick an unpaid mayor. The city has never had an audit, and its strategic plan candidly
states:

            The Gustavus City Council members and Mayor remind their constituents
            regularly that the city plans to keep the least amount of government necessary for
            the job and to spend its funding wisely, as though it had been raised by a bake
            sale.152



147
      See P.L. 109-58 sec. 356, 119 Stat. 719-720.
148
      See 31 USC 3526(d) and 31 USC 3529.
149
   See GAO, Denali Commission—Use of Oil Spill Liability Trust Fund, # B-323365 (pending for decision). This is an
appropriate approach to such an issue under Inspector General Act sections 4(a)(4) and 6(a)(3).
150
      See Denali Commission Act sec. 304(b).
151
   Federal officials violate the Antideficiency Act if they spend appropriations for purposes beyond those that Congress has
authorized. See GAO, Antideficiency Act—Applicability to Statutory Prohibitions on the Use of Appropriations, # B-317450
(March 23, 2009) at www.gao.gov.
152
      See Gustavus Strategic Plan 2005, page 17, at www.commerce.state.ak.us/dca/plans/Gustavus-SAP-2005.pdf.
Denali OIG inspection of                                         31                                            April 15, 2013
state subaward # 340240



To put it bluntly, OIG concludes that Denali and its state grantee misjudged the capacity of this
tiny and inexperienced153 settlement to handle yet another federal project. Denali and its state
grantee simply expected too much.

This was sadly evident when a Gustavus official recently expressed his assumption that “the city
had no responsibility in the construction of the tank farm other [than] to accept it when it was
complete.”154 Similarly, a recent City letter155 about its Denali-funded powerhouse seems to
expect decades of dependence upon the federal government:

            The City of Gustavus accepted the Gustavus Power Plant Facility with written
            assurance that the Denali Commission would provide the long-term oversight
            specified in the Business Operating Plan. . .

A sensitive issue is, of course, the possibility that the City has now found its “free” tank farm to
be a poor fit and no longer wants it. This sometimes happens with experimental programs like
Denali, and GSA can be enlisted to move the white elephant (“excess property”) to a better home
— if that’s the unspoken reality at this point. In a past inspection report,156 we have noted some
instances in which Alaska’s military has assisted with moves for the purpose of training and
community service.

The intense level of interest in this small project reflects its status as a showdown among several
competing interest groups. Such groups obviously have a keen interest in the federal funding that
passes through the Denali Commission. Per a state economist’s report,157 Alaska ranks first in the
nation in the per capita receipt of federal grants and fourth in the receipt of federal contracts.

On one hand, the dispute at Gustavus reflects the longstanding tension among non-federal leaders
who wear numerous hats around the state. On the other hand, it demonstrates the value of Denali
as a federal forum to “coordinate” competing interests — a constructive alternative to Alaska’s
litigious history over its federal projects.158



153
    One illustration of this inexperience was the complaint to a Member of Congress that OIG would not meet directly with two
council members concerning the City’s claims against the federal government. They apparently did not understand that a rule of
the Alaska Supreme Court bars OIG from meeting directly with parties who are represented by lawyers. Rule 4.2 is, of course,
intended for such parties’ own protection.
154
      Email dated Jan. 17, 2013 sent to OIG.
155
      Letter dated March 19, 2013 from Gustavus mayor to Denali’s agency head concerning the diesel powerhouse.
156
      See Denali OIG’s inspection report for Sterling Landing, Alaska (Jan. 2007), page 11, at www.oig.denali.gov.
157
   See Neal Fried, “Federal Spending in Alaska,” Alaska Economic Trends (Feb. 2012), pages 4-8, available online at http://
labor.state.ak.us/trends/feb12.pdf.
158
  See OIG’s discussion of this litigious history at pages 4-5 of our inspection report, “Training event in 2009,” available at
www.oig.denali.gov.
Denali OIG inspection of                                 32                                        April 15, 2013
state subaward # 340240




Four drafts of this report were provided to Denali’s agency head over the course of three months,
along with several opportunities159 to comment both formally and informally. OIG carefully con-
sidered his comments before publication. His formal response to this report is attached for the
reader.



                                                               MIKE MARSH, CPA, MPA, CFE, ESQ.

                                                                        INSPECTOR GENERAL
                                                                        DENALI COMMISSION




159
   This feedback from the agency head occurred on January 25, 2013, March 8, 2013, March 29, 2013, April 5, 2013, and
April 15, 2013.
